In the Supreme Court of the United States
Servando Gonzalez Galvan, Petitioner
v.
Merrick B. Garland, Attorney General, Respondent.
PROOF OF SERVICE
I, Erica Hashimoto, certify that on October 1, 2021, I hand
delivered the original and two copies of Petitioner’s Application for
Extension of Time with the Clerk’s Office of the Supreme Court of the
United States and further served the Application by email to
SupremeCtBriefs@USDOJ.gov and one copy of the Application by mail
to:
Brian H. Fletcher
Acting Solicitor General of the
United States
Room 5616
Department of Justice
950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001
/s/ Erica Hashimoto
Erica Hashimoto, Director
Georgetown University Law Center
Appellate Litigation Program
111 F Street NW, Suite 306
Washington, D.C. 20001
(202) 662-9555

